   October 15, 2002




Financial Management

Promptness of FY 2003 First Quarter
DoD Payments to the Department of
the Treasury for District of Columbia
Water and Sewer Services
(D-2003-010)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

IG DoD                Inspector General of the Department of Defense
WASA                  Water and Sewer Authority
         Office of the Inspector General of the Department of Defense
Report No. D-2003-010                                                  October 15, 2002
  (Project No. D2003CH-0002)

        Promptness of FY 2003 First Quarter DoD Payments to the
           Department of the Treasury for District of Columbia
                       Water and Sewer Services

                                Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
managers and other individuals who have a direct interest in, or are in need of
information about, the promptness of water and sewer payments to the District of
Columbia.

Background. The audit was conducted in response to Public Law 106-554, the
Consolidated Appropriations Act of 2001. The Act requires the inspector general of each
Federal agency that receives water and sewer services from the District of Columbia to
report to the Congressional Appropriations Committees on the promptness of payments
within 15 days of the start of each quarter. The District of Columbia Water and Sewer
Authority supplies both water and sewer services to Federal agencies and DoD
Components within the National Capital Region. The Department of the Treasury is the
collection agent for Federal agencies and DoD Components’ water and sewer payments,
with the Department of the Treasury submitting a single payment to the Water and Sewer
Authority. The DoD Components, composed of 16 separate installations, sites, and
organizations, are required to make advance quarterly payments to the Department of the
Treasury for estimated bills on anticipated water usage in FY 2003. If the estimated bill
is more than actual usage, the DoD Components receive a credit 3 years after the
payment, the time it takes for billing reconciliation.

Results. DoD Components promptly made first quarter FY 2003 payments totaling
$530,000 to the Department of the Treasury for District of Columbia water and sewer
services. Walter Reed Army Medical Center and National Imagery and Mapping Agency
were the only Components required to pay this quarter. Washington Headquarters
Services, Arlington National Cemetery, Fort McNair, the Navy, and Bolling Air Force
Base have credit balances because of excessive charges in prior years and were not
required to make quarterly payments in FY 2003.

Management Comments. We provided a draft of this report on October 8, 2002. No
written response to the report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objective                                                                   2

Finding
     DoD FY 2003 First Quarter Payments to the Department of the Treasury   3

Appendixes
     A. Scope and Methodology                                               5
     B. Prior Coverage                                                      6
     C. DoD Customers of the District of Columbia Water and Sewer
          Authority                                                         7
     D. Report Distribution                                                 8
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 states:

           Not later than the 15th day of the month following each quarter, the
           inspector general of each Federal department, establishment, or agency
           receiving water services [or sanitary sewer services] from the District
           shall submit a report to the Committees on Appropriations of the House
           of Representatives and the Senate analyzing the promptness of
           payment with respect to the services furnished to such department,
           establishment, or agency.

    This report covers FY 2003 first quarter payments and is one in a series of reports
    discussing the promptness of DoD payments to the Department of the Treasury
    for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and DoD
    Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the Department of the Treasury
    for water and sewer services provided to the Federal agencies, including DoD
    Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was
    paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’ water
    and sewer payments, with the Department of the Treasury remitting a single
    payment to the District of Columbia. Public Law 106-554 amends the process
    used by the Federal agencies to make payments to the Department of the
    Treasury. When agencies do not forward timely payments of amounts billed by
    WASA, the Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    WASA by the second day of each quarter. The Department of the Treasury bills
    Federal agencies and DoD Components annually for their estimated water and
    sewer usage and makes quarterly payments to WASA based on meter readings
    and estimates provided by WASA. The DoD Components are required to make
    quarterly payments to the Department of the Treasury for those annual estimated
    bills. See Appendix C for a list of DoD Components, composed of 16 separate
    installations, sites, and organizations that received WASA services.

    Federal Agency Responsibility. Public Law 101-168 mandates responsibility to
    the respective Federal agencies for payment of water and sewer services. The
    funds for the DoD Components receiving water and sewer services come through


                                             1
    the agencies’ operating budgets and their respective appropriations bills for the
    current fiscal year. Each quarterly payment is due to the U.S. Treasury account,
    “Federal Payment for Water and Sewer Services,” on the first day of the quarter.
    If the estimated bill is more than actual usage, the DoD Components receive a
    credit 3 years after the payment, the time it takes for billing reconciliation.


Objective
    The audit objective was to determine the promptness of DoD FY 2003 first
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior coverage related to the objective.




                                         2
           DoD FY 2003 First Quarter Payments to
           the Department of the Treasury
           DoD Components promptly made first quarter FY 2003 payments totaling
           $530,000 to the Department of the Treasury for District of Columbia
           water and sewer services. Walter Reed Army Medical Center and
           National Imagery and Mapping Agency were the only Components
           required to pay this quarter. Washington Headquarters Services,
           Arlington National Cemetery, Fort McNair, the Navy, and Bolling Air
           Force Base have credit balances because of excessive charges in prior
           years and were not required to make quarterly payments for FY 2003.


Promptness of FY 2003 First Quarter DoD Payments
    DoD Components promptly made first quarter FY 2003 payments totaling
    $530,000 to the Department of the Treasury for District of Columbia water and
    sewer services. Walter Reed Army Medical Center and National Imagery and
    Mapping Agency were the only Components required to pay this quarter.
    Washington Headquarters Services, Arlington National Cemetery, Fort McNair,
    the Navy, and Bolling Air Force Base have credit balances totaling $1.2 million
    for the quarter because of excessive charges in prior years. As shown in the
    following table, DoD Components were billed $530,000, paid $530,000, and had
    credits from excessive charges in prior years of $1.2 million for the FY 2003 first
    quarter payments.




                                         3
                          DoD Components’ FY 2003 First Quarter Bills and Payments
                                          (As of October 2, 2002)
                                                        Amount Billed          Credits From Overpayments                Amount Paid
                                                         (thousands)                   (thousands)                      (thousands)

Washington Headquarters Services1                           $     0                          $    (32)                       $     0
                                    2
Arlington National Cemetery                                       0                                (8)                            0
Walter Reed Army Medical Center                                 428                                  0                           428
                 3, 4
Fort McNair                                                       0                                (3)                            0
         5, 6
Navy                                                              0                              (869)                            0
                             7
Bolling Air Force Base                                            0                              (336)                            0
National Imagery and Mapping Agency                             102                                  0                           102
       Total                                                $530                             $(1,248)                        $530
1
    For FY 2003, Washington Headquarters Services received a credit of $126,000 due to excessive charges in prior years; $32,000
    represents the quarterly credit amount
2
    For FY 2003, Arlington National Cemetery received a credit of $33,000 due to excessive charges in prior years; $8,000 represents
    the quarterly credit amount
3
    Includes Fort McNair, National War College, and National Defense University Center
4
    For FY 2003, Fort McNair received a credit of $13,000 due to excessive charges in prior years; $3,000 represents the quarterly
    credit amount
5
    Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th & I), Naval
    Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard
6
    For FY 2003, Navy received a credit of $3.5 million due to excessive charges in prior years; $869,000 represents the quarterly
    credit amount
7
    For FY 2003, Bolling Air Force Base received a credit of $1.3 million due to excessive charges in prior years; $336,000 represents
    the quarterly credit amount




                                                       4
Appendix A. Scope and Methodology
   We reviewed DoD Component billing and payment information for the first
   quarter of FY 2003 for District of Columbia water and sewer services.
   Specifically, we reviewed bills received by DoD Components from the
   Department of the Treasury to establish the amounts billed for water and sewer
   services. We contacted the Department of the Treasury to confirm that funds
   available to DoD Components were withdrawn to pay the District of Columbia
   for FY 2003 first quarter water and sewer bills. See Appendix C for a list of DoD
   Components that received water and sewer services from WASA.

   We performed this audit in October 2002 in accordance with generally accepted
   government auditing standards.

   We did not review management controls because the audit is required every
   3 months by statute and an audit of the management control program, Inspector
   General of the Department of Defense (IG DoD) Report No. D-2002-140, has
   already been issued.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Financial Management high-risk area.




                                       5
Appendix B. Prior Coverage
    During the last 5 years, the IG DoD has issued 8 reports discussing the
    promptness of DoD payments to the Department of the Treasury for District of
    Columbia water and sewer services. Unrestricted IG DoD reports can be accessed
    at http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2002-140, “Measurement of Water Usage by DoD
    Components Serviced by the District of Columbia Water and Sewer Authority,”
    August 20, 2002

    IG DoD Report No. D-2002-128, “Promptness of FY 2002 Fourth Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” July 15, 2002

    IG DoD Report No. D-2002-082, “Promptness of FY 2002 Third Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” April 15, 2002

    IG DoD Report No. D-2002-040, “Promptness of FY 2002 Second Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” January 15, 2002

    IG DoD Report No. D-2002-007, “Promptness of FY 2002 First Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” October 15, 2001

    IG DoD Report No. D-2001-159, “Promptness and Completeness of FY 2001
    Fourth Quarter DoD Payments to the U.S. Treasury for Water and Sewer Services
    Provided by the District of Columbia,” July 13, 2001

    IG DoD Report No. D-2001-100, “Promptness and Completeness of FYs 2000
    and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
    Provided by the District of Columbia,” April 13, 2001

    IG DoD Report No. D-2001-053, “DoD Payments to the U.S. Treasury for Water
    and Sewer Services Provided by the District of Columbia,” February 15, 2001




                                       6
Appendix C. DoD Customers of the District of
            Columbia Water and Sewer
            Authority
According to the District of Columbia Water and Sewer Authority, the list below
identifies the 16 DoD Components for which WASA provided estimated bills to the
Department of the Treasury for water and sewer services for FY 2003.

       Army
       Arlington National Cemetery
       Fort McNair
       Walter Reed Army Medical Center
       Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks (8th & I)
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

       Air Force
       Bolling Air Force Base
       Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                         7
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Other Defense Organizations
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services
Commander, U.S. Joint Forces Command
Commander, U.S. Southern Command
Commander, U.S. Central Command
Commander, U.S. Space Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of the Treasury




                                          8
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           9
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Garold E. Stephenson
Robert K. West
Henry F. Kleinknecht
Ronald W. Hodges
Nicole M. Ellis
Lisa C. Rose-Pressley
